<html>
<title> - BUSINESS MEETING ON H.R. 4009, SMITHSONIAN NATIONAL ZOOLOGICAL PARK CENTRAL PARKING FACILITY AUTHORIZATION ACT, AND A COMMITTEE RESOLUTION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





  BUSINESS MEETING ON H.R. 4009, SMITHSONIAN NATIONAL ZOOLOGICAL PARK 
 CENTRAL PARKING FACILITY AUTHORIZATION ACT, AND A COMMITTEE RESOLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html 
                                    ______
   		 
                        U.S. GOVERNMENT PUBLISHING OFFICE 
   		 
32-362                       WASHINGTON : 2018                 
     
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia
























 
  BUSINESS MEETING ON H.R. 4009, SMITHSONIAN NATIONAL ZOOLOGICAL PARK 
 CENTRAL PARKING FACILITY AUTHORIZATION ACT, AND A COMMITTEE RESOLUTION

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:40 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Smith, 
Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Bob 
Sensenbrenner, General Counsel; Cole Felder, Deputy General 
Counsel; Dan Jarrell, Legislative Clerk; Max Engling, Staff 
Director of the Franking Commission; Mary Sue Englund, Director 
of Administration and Operations; Erin McCracken, 
Communications Director; Jamie Fleet, Minority Staff Director; 
Khalil Abboud, Minority Deputy Staff Director; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I call to order the Committee on House 
Administration for today's Committee markup. A quorum is 
present, so we may proceed. The meeting record will remain open 
for 5 legislative days so Members may submit any materials they 
wish to be included therein.
    We are here today to formally approve a Committee 
resolution to update the advertisement regulations found in the 
Members' Congressional Handbook and to markup H.R. 4009, the 
Smithsonian National Zoological Park Central Parking Facility 
Authorization Act.
    Our first agenda item deals with creating an advertisement 
with official resources. Representatives of the House are 
required to follow the regulations found in the Members' 
Congressional Handbook and submit the advertisement to the 
Franking Commission for an advisory opinion.
    The Committee resolution before us updates the regulations 
to allow advertisements that link directly to a Federal dot-gov 
or House of Representatives hosted website. This update will 
offer additional flexibility to Members when communicating with 
their constituents, while ensuring that the Franking Commission 
has clear direction on how to review advertisements.
    Our second agenda item, H.R. 4009, authorizes the 
Smithsonian Board of Regents to plan, design, and construct a 
centralized parking facility at the National Zoo in Washington, 
D.C., using nonappropriated funds. Currently, parking at the 
zoo includes several paved surface lots spread across the 
campus. The proposed new facility, included in the zoo's 2008 
master plan, consolidates public parking into a garage located 
at the mid-point of the zoo. Benefits of the project include 
increasing onsite visitor parking to better meet demand, 
expanding animal habitat by repurposing some surface lots, 
improving security through consolidating access points, and 
enhancing pedestrian safety.
    The Smithsonian intends to enter into a public-private 
partnership for the project. The developer would be responsible 
for the design, construction, maintenance, and operations of 
the facility for a fixed term, with the zoo receiving an annual 
payment based on revenues. No appropriated funds will be 
expended for the project. The developer will assume sole 
responsibility for financing.
    I would now like to recognize the Ranking Member, Mr. 
Brady, for the purpose of providing an opening statement, if he 
wishes.
    Mr. Brady. Thank you, Mr. Chairman. I have no opening 
statement.
    The Chairman. Does any other Member wish to be recognized 
for the purpose of an opening statement?
    The Chair recognizes the Vice Chairman of the Committee, 
Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I want to thank you for 
holding this markup, and I look forward to discussing the 
proposed and much needed changes to the Members' Congressional 
Handbook. As Chair of the Franking Commission, I think these 
are long overdue.
    I want to say I appreciate my counterpart on the Franking 
Commission, which many of you know is an equally divided 
commission that oversees the franking rules that Members have 
to follow for offering communications from our offices. My 
colleague and counterpart, Susan Davis, brought this issue to 
our attention. And I am glad we could find a solution that will 
benefit all of our Members on both sides in being able to 
communicate directly with our constituents the important work 
we are doing on their behalf.
    And as I communicated with Congresswoman Davis, it has 
never been our intention to prevent Members from communicating 
about websites like healthcare.gov with their constituents. But 
unfortunately, during these discussions, longstanding rules 
within the Members' Congressional Handbook have strictly 
prohibited directly linking to any website, other than the 
Member's official website, when it comes to paid 
advertisements. We all know government's not the best in 
keeping up with technology, and something this Committee has 
been focused on changing in many aspects of the House. And 
these changes that we are proposing today are long overdue.
    As more and more information is available to our 
constituents online, it only makes sense that we are able to 
link to these dot-gov and House-hosted sites in paid 
advertisements just as we are in regular communications through 
our offices. I hope this change today spurs interest in what I 
have been hoping to do, which is to review and update rules 
regarding Member communications to ensure that we have rules 
and transparency in place that better help our Members directly 
communicate with the people that they represent.
    So I look forward to this change, and I look forward to 
working with all of the Members of this Committee in a 
bipartisan way to ensure more transparency as we move into the 
future.
    And I yield back.
    The Chairman. The gentleman yields back.
    The Chair would certainly like to acknowledge the great 
work and the hard work that Mr. Davis has done, and we thank 
you for that effort.
    Any other Member wish to make an opening?
    Seeing none, I now call up and lay before the Committee the 
resolution to approve the update to the Members' Congressional 
Handbook. Without objection, the first reading of the 
resolution is dispensed with, and the resolution is considered 
read and open for amendment at any point.
    [The resolution follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate?
    Seeing none, are there any Members who want to offer an 
amendment to the resolution?
    If not, I move the Committee to adopt the resolution. The 
question is on the motion. All those in favor, signify by 
saying aye.
    All opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    The Chairman. And I now call up and lay before the 
Committee H.R. 4009, Smithsonian National Zoological Park 
Central Parking Facility Authorization Act. Without objection, 
the first reading of the bill is dispensed with, and the bill 
is considered read and open for amendment at any point.
    [The bill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate?
    Are there any Members who want to offer an amendment to the 
bill?
    If not, I move the Committee favorably report the bill. The 
question is on the motion. All those in favor, signify by 
saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to. Without objection, the motion to 
reconsider is laid upon the table.
    Without objection, the markup is adjourned.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]

                                  [all]


</pre></body></html>
